                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Can Better Address
                     Risks to the Security of the
                     Nation’s Drinking Water
                     Through New Authorities,
                     Plans, and Information
                     Report No. 13-P-0349                    August 21, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Dan Engelberg
                                                   Anne Declerck
                                                   Stacey Banks
                                                   Allison Dutton
                                                   Andre von Hoyer II


Abbreviations

CIPAC         Critical Infrastructure Partnership Advisory Council
DHS           U.S. Department of Homeland Security
EPA           U.S. Environmental Protection Agency
ERP           Emergency Response Plan
FMFIA         Federal Managers’ Financial Integrity Act of 1982
FY            Fiscal Year
GAO           U.S. Government Accountability Office
GPRA          Government Performance and Results Act of 1993
HSPD          Homeland Security Presidential Directive
ICR           Information Collection Request
NHSRC         National Homeland Security Research Center
OHS           Office of Homeland Security
OIG           Office of Inspector General
OMB           U.S. Office of Management and Budget
ORD           Office of Research and Development
OW            Office of Water
SAR           Sector Annual Report
SSP           Sector Specific Plan
VA            Vulnerability Assessment
WARN          Water/Wastewater Agency Response Network
WLA           Water Laboratory Alliance
WSD           Water Security Division
WSI           Water Security Initiative


Cover photo: A drinking water facility in Washington, D.C. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0349
                                                                                                        August 21, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA Can Better Address Risks to the Security
We conducted this review to         of the Nation’s Drinking Water Through
determine how the                   New Authorities, Plans, and Information
U.S. Environmental Protection
Agency (EPA): (1) ensures that
its efforts and initiatives are      What We Found
safeguarding the nation’s
drinking water supply from          EPA has implemented a number of activities to promote the security of drinking
attacks and natural disasters;      water systems. However, strategic planning and internal controls for the water
and (2) addressed                   security program need to be strengthened to allow the Agency to measure the
recommendations and                 program’s performance and progress in drinking water systems’ preparedness,
suggestions from prior              prevention, response, and recovery capabilities. EPA’s strategic planning in this
evaluations of the water            area is hampered by its limited authority over water security, the voluntary nature
security program.                   of its water security activities, and concerns related to protecting information.
                                    These impediments could be overcome by the water security program utilizing
Over 297 million people in the      available data; using alternative methods to gather data; and seeking additional
United States were served by        authority from Congress to collect, protect, and utilize information from water
51,460 community water              systems. EPA should also expand its internal controls to meet Federal Managers’
systems as of September 2010.       Financial Integrity Act requirements.
The September 11, 2001,
attacks prompted a national         EPA has made progress improving water security by taking corrective actions
effort to secure critical           based on the recommendations and suggestions from prior evaluations.
infrastructure and resources,       However, the Agency has not fully addressed three Office of Inspector General
including drinking water. Since     (OIG) suggestions to establish a baseline and measure improvements, despite
the 2001 attacks, there have        agreeing with OIG’s assessment. Additional work remains for EPA, as the lead
also been a number of natural       federal agency for the water sector, to enhance its efforts to manage the water
disasters, such as Hurricanes       security program and help reduce risks to drinking water systems and the public.
Katrina and Irene. These
events have threatened               Recommendations and Planned Agency Corrective Actions
individual drinking water
systems, resulting in unsafe        We recommend that EPA develop a comprehensive strategic plan, assess water
drinking water and shortages.       security by gathering available data and incorporating measures into national
                                    guidance, and improve internal controls by developing a program review strategy
This report addresses the           and a multi-year review plan. We also recommend that EPA seek additional
following EPA Goal or               authority from Congress and utilize the authority, if granted, to develop a baseline
Cross-Cutting Strategy:             and outcome measures. EPA initially agreed with four recommendations in the
                                    draft report. After further discussions with the Agency, the OIG modified the three
 Protecting America’s waters.      remaining recommendations to seek additional authority and develop a baseline
                                    and outcome measures. As a result of these discussions and modifications, the
                                    Agency has also concurred with the remaining recommendations. The
For further information, contact    recommendations are resolved with corrective actions underway.
our Office of Congressional and
Public Affairs at (202) 566-2391.    Noteworthy Achievements
The full report is at:              EPA developed the Water Security Initiative and Water Laboratory Alliance.
www.epa.gov/oig/reports/2013/
                                    The Agency also supported the establishment of many intrastate mutual aid and
20130821-13-P-0349.pdf
                                    assistance agreements called Water/Wastewater Agency Response Networks.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL



                                             August 21, 2013

MEMORANDUM

SUBJECT:       EPA Can Better Address Risks to the Security of the Nation’s Drinking Water
               Through New Authorities, Plans, and Information
               Report No. 13-P-0349

FROM:          Arthur A. Elkins Jr.

TO:            Nancy Stoner, Acting Assistant Administrator
               Office of Water

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by managers in accordance with established audit resolution procedures.

Action Required

You are not required to provide a written response to this report because you agreed to all
recommendations and provided corrective actions and planned completion dates that meet the intent of
our recommendations. All recommendations are resolved and open with corrective actions underway.
Please update the EPA’s Management Audit Tracking System as you complete the planned corrective
actions for the OIG’s recommendations. The OIG may make periodic inquiries on your progress in
implementing these corrective actions. Please notify my staff if there is a significant change in agreed-to
corrective actions. We will post this report to our website at http://www.epa.gov/oig.

If you or staff have any questions regarding this report, please contact Carolyn Copper, 

Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov; 

or Dan Engelberg, Director for Water, at (202) 566-0830 or engelberg.dan@epa.gov. 

EPA Can Better Address Risks to the Security of the Nation’s                                                                 13-P-0349
Drinking Water Through New Authorities, Plans, and Information


                                    Table of Contents 


Chapters
   1     	Introduction ........................................................................................................     1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                4     

                 Scope and Methodology ..............................................................................               5     


   2	    Strengthening Strategic Planning and Internal Controls 

         Will Enhance EPA’s Drinking Water Security Program ..................................                                      7


                 EPA Assists Drinking Water Systems .........................................................                       7

                 EPA Needs Improved Strategic Planning for Water Security ......................                                    8

                 Information Challenges Hinder Strategic Planning……………………………                                                       11 

                 EPA Needs Additional Internal Controls for Water Security ........................                                13 

                 Prior Recommendations Implemented but Some Suggestions Remain......                                               15 

                 Conclusion...................................................................................................     15     

                 Recommendations ......................................................................................            16     

                 Agency Comments and OIG Evaluation………………………………………                                                                 17 


   Status of Recommendations and Potential Monetary Benefits..............................                                         18




Appendices
   A	    Prior Drinking Water Security Reports.............................................................                        19 


   B	    Agency Response to the Draft Report and OIG Comments...........................                                           20 


   C     D
         	 istribution .........................................................................................................   24 

                                              Chapter 1

                                               Introduction
Purpose
                  The purpose of this evaluation was to determine how effectively the
                  U.S. Environmental Protection Agency (EPA) water security program is
                  assisting drinking water systems protect against potential attacks and natural
                  disasters. Our specific objectives were to determine:

                           How EPA ensures its efforts and initiatives are safeguarding the nation’s
                            drinking water supply from attacks and natural disasters.
                           How EPA addressed recommendations and suggestions from prior
                            evaluations of the water security program.

Background
                  Drinking water is one of the nation’s most vital resources. Over 297 million
                  people in the United States were served by 51,460 community water systems as of
                  September 2010. Potential threats to this resource include biological, chemical,
                  and radiological contamination, and destruction of water infrastructure. The
                  September 11, 2001, terrorist attacks prompted a national effort to secure critical
                  infrastructure and resources, including drinking water. Since the 2001 attacks
                  there have also been a number of natural disasters, such as Hurricanes Katrina and
                  Irene. These events have threatened individual drinking water systems, resulting
                  in unsafe drinking water and shortages.

                  The Bioterrorism Act and Homeland Security Presidential Directives

                  EPA’s authority to assist drinking water systems with protecting the drinking
                  water supply against threats is primarily based on the Bioterrorism Act of 2002,
                  and is further reinforced through two Homeland Security Presidential Directives
                  (HSPDs). The Bioterrorism Act contained a one-time requirement for most
                  drinking water systems1 to submit a vulnerability assessment (VA)2 and
                  emergency response plan (ERP)3 certification to EPA by the end of 2004.


1
  Community water systems serving a population greater than 3,300 persons had to comply with the Bioterrorism
Act of 2002.
2
  A VA is a review of a drinking water system and its components to determine the likelihood that a terrorist attack
or other intentional acts could substantially disrupt the ability of the system to provide a safe and reliable supply of
drinking water.
3
  An ERP addresses the threats identified in the VA and includes the water system’s plans, procedures, and
identification of equipment that can be used in the event of a terrorist attack or other intentional act.


13-P-0349                                                                                                                  1
                  HSPD-7, Critical Infrastructure Identification, Prioritization, and Protection, and
                  HSPD-9, Defense of United States Agriculture and Food, describe EPA’s general
                  responsibilities when dealing with terrorist attacks and natural disasters. These
                  HSPDs have led to a range of water security activities, as discussed in chapter 2.
                  The HSPDs do not provide EPA authority to require specific security measures at
                  drinking water systems.

                  HSPD-7 was issued in 2003. It established a national policy for the federal
                  government to identify, prioritize, and protect critical infrastructure from terrorist
                  attacks and natural disasters. It also designated EPA as the lead federal agency for
                  ensuring the protection of the water sector. This involves assisting drinking water
                  systems with protecting against terrorism and natural disasters. EPA does this by
                  encouraging the use of risk management strategies. EPA supports the water sector
                  by offering tools, training, and technical assistance. EPA is the sector-specific
                  agency for the water sector and develops the Water Sector Specific Plan (Water
                  SSP). The Water SSP is part of the overall National Infrastructure Protection Plan
                  developed by the Department of Homeland Security (DHS).4 The Water SSP
                  details risk-based protection strategies. The Water SSP describes the processes
                  and activities that enable protection and increased resilience of water sector
                  infrastructure. EPA is required to submit a Water Sector Annual Report (SAR) to
                  DHS as part of its sector responsibilities. The SAR details EPA’s water security
                  activities. These activities are designed to mitigate risks, outline annual progress,
                  and provide updates on water sector activities that are conducted or planned for
                  the year.

                  HSPD-9 was issued in 2004. It requires EPA to develop a robust and
                  comprehensive surveillance and monitoring program. This program provides
                  early detection of contaminants in water systems. HSPD-9 also directs EPA to
                  develop a network of water quality laboratories to support the surveillance
                  program. EPA has pursued these responsibilities through its Water Security
                  Initiative (WSI) and Water Laboratory Alliance (WLA).

                  Organizational Structure of EPA’s Water Security Program

                  EPA’s Water Security Division (WSD) is the lead office for the water security
                  program. WSD is located within the Office of Water (OW) and is supported by
                  three other EPA offices: the Office of Homeland Security (OHS) in the
                  Administrator’s Office, the Office of Research and Development’s (ORD’s)
                  National Homeland Security Research Center (NHSRC), and the Office of Solid
                  Waste and Emergency Response’s Office of Emergency Management.
                  Coordination and collaboration efforts are needed because there are multiple
                  offices involved in water security. An organizational chart of the water security
                  program is in figure 1.


4
  The National Infrastructure Protection Plan provides the framework for integrating the nation's critical
infrastructure and key resource protection efforts across all sectors to achieve the goal of a safer, more secure nation.


13-P-0349                                                                                                              2
            Figure 1: EPA water security organizational chart




            Source: EPA, Water SSP: An Annex to the National Infrastructure Protection Plan (2010).

            EPA Water Security Funding

            Current funding levels have declined from about $175.6 million in fiscal year (FY)
            2002 when EPA received the authority to oversee the VAs. According to budget
            data provided by EPA personnel, EPA’s water security program was funded at
            approximately $22 million across the four water security program offices for
            FY 2012. WSD received the largest portion of this funding—$12.4 million—
            of which $7.3 million was allotted to the WSI and WLA programs.

            Strategic Planning and Internal Controls

            Congress has made strategic planning and internal controls cornerstones for
            managing federal agency operations. Strategic planning is an essential business
            practice for ensuring that programs efficiently achieve desired goals. Internal
            controls provide a mechanism for managing program performance. They also
            protect against program risk. The Government Performance and Results Act of
            1993 (GPRA) and the Federal Managers’ Financial Integrity Act of 1982
            (FMFIA) set the principles and processes that underlie accomplishing federal
            agencies’ missions, goals, and objectives. These acts support results-oriented
            management which, in the case of the water security program, would be ensuring
            effective water security efforts and initiatives.




13-P-0349                                                                                             3
            GPRA requires agencies to develop strategic plans, set performance goals, and
            report annually on performance. Performance is assessed using outcome
            performance measures that are compared to a baseline to gauge progress. EPA
            supplements this agency-level reporting with program-level guidance. National
            Program Manager Guidance is issued annually by EPA program offices to
            provide direction on programmatic priorities and implementation strategies.

            FMFIA establishes specific requirements regarding internal controls. These
            requirements include an annual evaluation and report about the internal control
            systems that are used to protect the integrity of programs. Internal controls
            include policies, procedures, performance measures, reviews, and other activities.
            Effective internal controls provide assurance for the timely detection or
            prevention of risks to the design or operation of a program. FMFIA requires
            federal agencies to establish internal controls in accordance with U.S. Office of
            Management and Budget (OMB) Circular A-123 and U.S. Government
            Accountability Office (GAO) standards.

            EPA Order 1000.24 is the Agency’s strategy and framework for implementing
            FMFIA. Agencies must submit annual statements concerning their internal
            controls’ effectiveness at meeting FMFIA requirements and GAO standards.
            This is done through an annual assurance letter process. Each EPA program office
            submits an assurance letter to the EPA Administrator. These letters provide the
            basis for an annual statement of assurance to the President and Congress. EPA is
            required to identify key programs and develop program review strategies (referred
            to hererafter as “strategies”) as part of this process. The strategies must identify
            and rank the risks of not achieving program objectives. The strategies must also
            outline the internal controls used to mitigate those risks. Each EPA office must
            also assess the effectiveness of its programs’ internal controls using a multi-year
            internal control review plan (referred to hereafter as “multi-year plan”). This plan
            establishes priorities for assessing the internal controls based on risk levels
            assigned to programs in the strategy. The multi-year plan determines which
            programs and specific controls will be reviewed and in what order for each EPA
            office.

Noteworthy Achievements
            EPA has conducted a number of activities to assist drinking water systems in
            addressing water security threats. These activities include:

               	 The Water Security Initiative: EPA developed and piloted a drinking
                  water contamination warning system in five major cities. EPA also
                  published interim guidance for other systems based on lessons learned
                  from the pilots.




13-P-0349                                                                                     4
                     	 The Water Laboratory Alliance: EPA has worked to establish a national
                        network of laboratories to analyze water samples in the event of a terrorist
                        attack or natural disaster. Notably, EPA has developed a WLA national
                        response plan and has conducted exercises to test and obtain feedback on
                        the feasibility of the plan.

                     	 Water/Wastewater Agency Response Networks (WARNs):
                        EPA supported establishing intrastate mutual aid and assistance agreements
                        among water systems. These agreements outline how water systems assist
                        each other with responding to and recovering from emergencies.
                        Agreements exist in 47 states and the National Capital Region.  

Scope and Methodology
                 We conducted this evaluation from February 2012 to February 2013 in
                 accordance with generally accepted government auditing standards. Those
                 standards require that we plan and perform the evaluation to obtain sufficient,
                 appropriate evidence to provide a reasonable basis for our findings and
                 conclusions based on our evaluation objectives. We believe that the evidence
                 obtained provides a reasonable basis for our findings and conclusions based on
                 our evaluation objectives. The scope of this evaluation was focused on drinking
                 water security. Our scope excluded chemical security, cyber security, and
                 wastewater facilities.

                 We reviewed the Bioterrorism Act and HSPDs 7 through 10. We also reviewed
                 the 2010 Water SSP Annex; the Water SAR; EPA’s water security strategic
                 planning documents; and relevant prior reports by GAO, Congressional Research
                 Service, and EPA OIG. We also reviewed OW’s National Program Manager
                 Guidance.

                 We conducted interviews at EPA headquarters with personnel from WSD, OHS,
                 NHSRC, and Office of Emergency Management. We distributed an information
                 request to these offices. The request asked to identify budgets and staffing, water
                 security efforts and initiatives (activities) and performance measures.
                 We collected information updates on EPA corrective actions taken due to prior
                 EPA OIG and GAO water security report recommendations and suggestions. 5
                 Further, we interviewed water security staff from EPA Regions 3 and 5.

                 We interviewed staff from the DHS Office of Infrastructure Protection.
                 Additional staff interviews were held with the Association of State Drinking
                 Water Administrators, American Water Works Association, and National Rural
                 Water Association. We followed up with GAO staff on past GAO water security-
                 related reports and prior recommendations.

5
  OIG suggestions were offered to EPA when not all elements needed for a recommendation were present;
e.g., when the evaluation process was abbreviated.


13-P-0349                                                                                               5
            We analyzed EPA’s strategic planning elements. We also analyzed the FMFIA
            management integrity process for internal controls in place for the water security
            program. We focused our analysis of FMFIA management integrity processes for
            internal controls on EPA OW. We did this because WSD plays the lead role in
            EPA’s water security efforts.

            Prior Audit Coverage

            We collected information on the status of EPA’s corrective actions for
            recommendations and suggestions from past evaluations as part of answering our
            second evaluation objective. We identified nine drinking water security-related
            reports between 2003 and 2008. Six reports were issued by EPA OIG and three by
            GAO (appendix A). The prior reports are discussed in chapter 2. The OIG also
            issued reports about the effectiveness of EPA’s strategic planning efforts and on
            applying FMFIA. These reports relate to improving programmatic operations,
            internal controls, and the management integrity process. They also highlight the
            importance strategic planning and internal controls play in achieving
            programmatic success.




13-P-0349                                                                                    6
                                  Chapter 2

             Strengthening Strategic Planning and 

                 Internal Controls Will Enhance 

            EPA’s Drinking Water Security Program 

            EPA has implemented a number of activities to promote the security of drinking
            water systems. However, strategic planning and internal controls for the water
            security program need to be strengthened to allow the Agency to measure the
            program’s performance and progress in drinking water systems’ preparedness,
            prevention, response, and recovery capabilities. EPA’s strategic planning is
            hampered by its limited authority over water security, the voluntary nature of its
            water security activities, and concerns related to protecting information. These
            impediments could be overcome by the water security program utilizing available
            data, using alternative methods to gather data, and seeking additional authority
            from Congress to collect, protect, and utilize information from water systems.
            Additionally, EPA’s water security program has not fully met FMFIA
            requirements for internal controls. EPA has made progress in improving water
            security by taking corrective actions based on the recommendations and several
            suggestions from prior evaluations. However, the Agency has not fully addressed
            three OIG suggestions from earlier reports, despite agreeing with the OIG’s
            assessment. EPA, as the lead federal agency for the water sector, needs additional
            strategic planning and internal controls in order to ensure it effectively assists
            drinking water systems in the protection of the nation’s drinking water, has
            current information on the state of drinking water security, and helps reduce risks
            to drinking water systems and the public.

EPA Assists Drinking Water Systems
            EPA administers a number of activities to promote water security and assist
            drinking water systems to protect against terrorist attacks and natural disasters.
            These activities include providing training, tools, technical assistance, and
            guidance. They also include conducting water security-related research and
            working with the water sector on water security activities. The water sector
            consists of EPA, other federal agencies, states, local agencies, water systems, and
            water associations. EPA serves as chair of the Water Government Coordinating
            Council, which, along with its private sector counterpart, forms the water sector
            component of DHS’s Critical Infrastructure Partnership Advisory Council
            (CIPAC). CIPAC supports critical infrastructure protection, including the water
            sector. Below are some examples of EPA’s water security activities.




13-P-0349                                                                                     7
                 Prevention and Preparedness

                      	 WSI is an ongoing pilot program featuring a contamination warning and
                         detection system EPA started in five cities.
                      	 EPA’s water security program provides access to the Water Information
                         Sharing and Analysis Center for EPA staff and state drinking water
                         officials. The Water Information Sharing and Analysis Center is a
                         subscription service that shares threat information with drinking water
                         systems.
                      	 NHSRC shares various tools and technical assistance based on its water
                         security research. This research is related to VAs; emergency response
                         planning; and contaminant sampling, analytical, and mitigation
                         methodologies.
                      	 WSD provides training and hosts webinars on water security-related tools.
                         WSD also works with states to design water sector exercises.

                 Response and Recovery

                      	 EPA supports WARNs, an intrastate mutual aid network for water systems
                         developed, through outreach, technical assistance, tabletop exercises, and
                         development of operational plans.
                      	 The WLA provides water sample analysis support during a terrorist attack
                         or natural disaster.
                      	 NHSRC conducts research and develops strategies to address
                         decontamination challenges such as treatment protocols, disposal of
                         decontamination waste, and the persistence of contaminants in water
                         infrastructure.

                  As a result of EPA’s activities, water systems now have access to resources
                  which were not previously available. Information gathered from the WSI pilot
                  programs is used to improve current tools for contamination monitoring systems.
                  Water security training and exercises allow water systems to develop
                  relationships with other systems; local, state, and federal entities; and responders.
                  Exercises also enable water systems to test their ERPs.

EPA Needs Improved Strategic Planning for Water Security
                 The water security program needs to adopt a more thorough strategic planning
                 process in order to assess its performance and guide future actions. Effective
                 strategic planning involves five essential elements and should be framed by a
                 comprehensive plan. The five essential strategic planning elements are outcome
                 goal(s), long-term and annual outcome performance measure(s), output
                 performance measure(s), and baseline(s).6 EPA has carried out significant

6
 The five essential elements of strategic planning are identified in the GPRA Modernization Act of 2010,
OMB Circular A-11, and prior OIG reports.


13-P-0349                                                                                                  8
            strategic planning efforts within the water security program. However, the
            Agency would benefit from a comprehensive strategic plan to guide its efforts
            across the four program offices that contribute to water security. A coordinated
            and collaborative planning approach is necessary to connect each office’s
            activities to EPA’s water security goals. EPA is also missing three of the five
            essential strategic planning elements that would allow it to better manage the
            water security program. The lack of these elements impacts EPA’s ability to
            determine whether its activities are effective in assisting water systems to identify
            vulnerabilities.
             
            Strategic Planning Efforts Are Not Comprehensive

            EPA does not have a comprehensive water security strategic plan containing the
            five essential strategic planning elements. Such a plan would link the activities of
            the four program offices involved to EPA’s overall water security goals. EPA’s
            water security program has instituted multiple strategic planning initiatives since
            the implementation of the Bioterrorism Act of 2002 and periodically reviews its
            current activities. These initiatives do not collectively or individually address all
            five of the essential strategic planning elements.

            Examples of existing water security planning documents include: (1) the Water
            SSP that serves as EPA’s water security strategic plan, (2) WSD’s Business Plans
            used to make the Water SSP operational, (3) ORD’s Homeland Security Strategic
            Research Action Plan which identifies the water sector’s research needs, and
            (4) OW’s SAR which details annual progress and updates on water sector activities
            being conducted or planned. A comprehensive strategic plan would allow EPA to
            organize the collective efforts of the four program offices toward water security.

            OHS recently collaborated with EPA program offices on a homeland security
            strategic review to identify future areas of work. The review covered eight areas
            and included water security. OHS completed a work plan to address these areas in
            May 2013. OHS’s strategic review does not contain all five essential strategic
            planning elements.

            Strategic Planning Elements Are Needed

            EPA also does not have all of the necessary strategic planning elements for the
            water security program in place. EPA’s water security program has two of the five
            elements (see table 1). However, EPA has not established a water security
            baseline, or annual and long-term outcome performance measures. These
            elements would allow EPA to understand how effective its activities are in
            assisting water systems and better manage the program. The documents listed
            below identify the water security program’s outcome goals and output
            performance measures. The documents also allow the agency to set output targets
            and keep track of activities.




13-P-0349                                                                                       9
    Table 1: Essential strategic planning elements—water security program
                                                    EPA’s water
                                                     security
    Strategic planning elements                      program            Strategic planning documents
    Outcome Goal7                                      Yes                        Water SSP
                                                                                  Water SAR
                                                                      ORD’s Strategic Research Action Plan
    Long-Term Outcome Performance                        No                     None Identified
    Measures
    Annual Outcome Performance Measures                  No                        None Identified

    Output Performance Measures8                         Yes                      Water SAR
                                                                          WSD’s Annual Business Plans
    Baseline for Program Measurement                     No                     None Identified
    Source: OIG Analysis of water security program documents provided by EPA.

                           Water Security Baseline

                           None of the water security planning documents we reviewed contains a
                           baseline from which to measure the current status of water security. A
                           baseline is an essential strategic planning component and is a reference
                           point against which progress can be measured. A baseline is necessary to
                           set and achieve water security goals. The effectiveness of any strategic
                           planning effort is weakened if performance cannot be measured against a
                           baseline. To establish a water security baseline, EPA needs to gather
                           security information about a water system’s preventative measures,
                           preparedness, response capability, and resiliency. A general example of
                           baseline data for water security could include the percentage of
                           community water systems that have an ERP, conduct ERP training and
                           exercises, and review and update their ERP on a periodic basis. Once a
                           water security baseline is established the Agency should be able to
                           develop outcome performance measures to measure progress.

                           Annual and Long-Term Outcome Performance Measures

                           EPA does not identify annual or long-term outcome performance measures
                           in any of the water security planning documents although it identifies output
                           measures. While performance measures should distinguish between
                           outcomes and outputs, there should be a logical connection between them,
                           with outputs supporting outcomes. Annual and long-term outcome
                           performance measures indicate progress toward overall water security


7
  An outcome goal is the result or achievement toward which effort is directed. An outcome goal can be long- or
short-term and may be expressed specifically or broadly. Progress against goals should be monitored using a suite of
supporting targets, measures, and timeframes.
8
  An output measure is the tabulation, calculation, or recording of an activity or effort and can be expressed in a
quantitative or qualitative manner.


13-P-0349                                                                                                        10
                   goals, over the course of a year and several years, respectively. These
                   outcome measures indicate what is being accomplished, whether results are
                   being achieved, and indicate changes in conditions the program is trying to
                   influence. Examples of performance measures could include the following:

                       	 Annual: By the end of a specified annual date, a specific
                          percentage of large community water systems will have an ERP,
                          conduct ERP training and exercises, and review and update their
                          ERP on a periodic basis. 
                       	 Long-Term: By the end of a specified long-term date, a specific
                          percentage of large community water systems will have an ERP,
                          conduct training on their ERP, carry out exercises on their ERP, and
                          review and update their ERP on a periodic basis. 

                   OW’s National Program Manager Guidance for FY 2012 does not have
                   any performance measures for the water security program. This is despite
                   water security being identified as one of the 26 key programs through the
                   FMFIA process and a national water program priority for the fiscal year.
                   A foundation for water security performance measures in the National
                   Program Manager Guidance could be provided by a comprehensive
                   strategic plan.

Information Challenges Hinder Strategic Planning
            Many of the problems with EPA’s strategic planning stem from the lack of
            information about water security. EPA lacks information about water systems,
            such as VAs, ERPs, and other data necessary to accurately evaluate the program’s
            status and progress. While the water security program is voluntary and lacks
            regulatory provisions to collect and protect information beyond the Bioterrorism
            Act requirements, the Agency has not used existing sources or alternative
            methods to collect information from water utilities. The lack of information
            impacts EPA’s ability to understand how its water security activities are assisting
            the water sector to protect against terrorism and natural disasters.

            Limitations of EPA’s Water Security Program

            EPA does not have specific knowledge of water systems’ security levels. This is
            because of the Agency’s limited authority, the voluntary nature of its program, and
            concerns associated with protecting information from public disclosure under the
            Freedom of Information Act. According to EPA, drinking water systems decide if
            and how they will use EPA’s water security program. EPA does not have authority
            to require water systems to submit security information; utilize training, tools,
            technical assistance, or guidance; or implement security enhancements or update
            their VAs and ERPs. Since EPA lacks the authority, the Agency has not requested
            any updates on VAs or ERPs since the Bioterrorism Act statutory deadline in 2004.




13-P-0349                                                                                    11
            Currently, EPA may not be able to protect from disclosure information gathered
            outside of the Bioterrorism Act under the Freedom of Information Act.
            WSD advised OIG that the program attempts to develop meaningful metrics.
            However, a means to collect information directly from water systems for outcome
            measures does not currently exist. WSD depends on its working relationships with
            water systems and attendance at conferences to gather anecdotal water security
            information.

            Approaches for Collecting Water Security Data

            OW currently collects various output measures that provide an idea of how
            prepared and resilient water systems are if an event occurs. These data focus on
            outputs but could be helpful for the establishment of a baseline and measurement
            of water security progress. EPA, however, does not use these output measures to
            manage the program. Examples of pertinent output measures include: the number
            of trainings conducted; the number of water systems participating in WARNs;
            lessons learned from actual incidents, drills and exercises; and the 18 measures
            suggested by the CIPAC. OW also collects data in response to metrics in the
            Water SAR.

            OW has also not used alternative information collection methods, such as an
            Information Collection Request (ICR), to gather more information about system
            preparedness and responsiveness. This information could include system data on
            preparedness and resiliency, such as security features and enhancements, staff
            security training, and the number of drills and exercises participated in. It could
            also include whether any EPA-based security tools are used by systems, and if
            VAs and ERPs are updated. OW has cited a number of reasons why an ICR may
            be impractical, including the cost of conducting an ICR, the lack of a statutory
            basis for obtaining OMB approval, and the unwillingness of water systems to
            provide such information.

            Currently, OW does not have any statutory authority to collect, protect, and utilize
            new information from the water sector. As such, EPA is limited in knowing how
            effective its efforts are in assisting the water sector to protect against terrorism
            and natural disasters. In 2009, EPA’s Assistant Administrator for Water testified
            before the Subcommittee on Energy and the Environment Committee on Energy
            and Commerce, U.S. House of Representatives, about the proposed Drinking
            Water Security Act of 2009, which primarily addressed chemical security at
            drinking water systems. The proposed act also considered risks in general and
            would have extended drinking water security requirements for drinking water
            systems as well as authority for the Agency. However, it did not pass both
            chambers of Congress. In January 2013, the Secure Water Facilities Act was
            referred to the Senate Committee on Environment and Public Works and would
            expand the requirements for vulnerability assessments, site security plans, and
            emergency response plans for both the Agency and drinking water systems.




13-P-0349                                                                                     12
                  This bill also proposes performance standards and provides protection for water
                  security information within vulnerability assessments and site security plans.
                  The bill currently remains with the committee. Additional authority could
                  improve EPA’s effectiveness in carrying out its water security duties and
                  may further enable the Agency to establish a baseline and outcome
                  performance measures.

EPA Needs Additional Internal Controls for Water Security
                  In its FY 2010 FMFIA Assurance Letter, OW identified the water security
                  program as one of 26 key programs. OW established a strategy and multi-year
                  plan for the WSD and its water security activities. We determined that, overall,
                  the strategy and multi-year plan lack several elements required by FMFIA, as
                  implemented by OMB and EPA guidance.

                  Program Review Strategy

                  OW’s water security strategy does not fully comply with the internal control
                  standards in OMB Circular A-123, which are based upon the GAO Standards for
                  Internal Control. Therefore it also does not fulfill FMFIA requirements.9 There
                  are five required GAO standards for internal controls: control environment, risk
                  assessment, control activities, information and communications, and monitoring.
                  OW must address and comply with each of these standards in its water security
                  strategy. Also, the purpose of the strategy is to identify the risk associated with
                  the program and the internal controls to mitigate the risk. EPA Order 1000.24
                  directs that strategies meet the program’s needs. The strategy should be evaluated
                  regularly because it serves as the basis for the FMFIA assurance letters.

                  According to OMB Circular A-123, internal controls do not guarantee the success
                  of an agency’s programs or the absence of waste, fraud, and mismanagement.
                  Rather, internal controls are an essential means of managing the risks associated
                  with the operations of the water security program, such as ineffective tools,
                  insufficient training, waste of taxpayers’ dollars, and natural disasters. A strategy
                  with inadequate internal controls will often fail to identify program risks and
                  result in unaddressed vulnerabilities pertaining to preparedness, prevention,
                  response, and recovery. Therefore, the application of additional internal controls
                  in the water security strategy will lead to improvements in program operations,
                  FMFIA compliance, and reduced programmatic risk. Examples of some of the
                  shortcomings in the water security strategy are discussed below.



9
 EPA OIG’s 2009 report, EPA Should Use FMFIA to Improve Programmatic Operations (Report No. 09-P-0203),
found that EPA had not used FMFIA to improve program operations as intended. Further, the report stated that EPA
offices were not developing strategies that systematically and annually assess the effectiveness of internal controls
or include elements such as GPRA. These conclusions are aligned with observations noted from the water security
program during this evaluation.


13-P-0349                                                                                                         13
                   Control Activities

                   OW identified VAs, ERPs, tools, and technical assistance as water security
                   strategy control activities. Control activities are policies, procedures,
                   mechanisms, and performance measures. They mitigate the program’s risk
                   and fulfill the program’s objective of helping water systems enhance their
                   security and response capability. However, VAs and ERPs are insufficient
                   control activities. They are handled by drinking water systems and not by
                   WSD. In fact, there is no requirement for water systems to update VAs or
                   ERPs, or submit updates to EPA. Further, OW does not currently use the
                   information contained within VAs or ERPs that was originally submitted by
                   the end of 2004. OW only has immediate control over its tools and technical
                   assistance, which are appropriately identified as control activities.

                   Monitoring

                   The strategy also does not incorporate an adequate process for monitoring.
                   According to the GAO standards and EPA Order 1000.24, the monitoring
                   aspect of the strategy should assess the quality of a program’s
                   performance over time. Monitoring can include periodic reviews, self-
                   assessments, audits, comparisons of detective and preventative data,
                   reconciliations, and separate external evaluations. Monitoring should be
                   performed continually as part of the agency’s operations. OW identified
                   conference calls, meetings, and conferences for the monitoring activities
                   in the water security strategy. However, while these may be acceptable
                   means for monitoring, our review of recent meeting minutes did not reveal
                   any substantive discussions about internal controls. Therefore, we do not
                   have evidence to suggest that the use of meetings, conferences, and calls
                   for monitoring are effective to evaluate how well the program’s internal
                   controls are performing.

            Multi-Year Internal Control Review Plan

            OW’s multi-year plan does not have an adequate process for evaluating the water
            security program’s internal controls. Along with the program review strategy, the
            multi-year plan is an Agency requirement, for FY 2010 and beyond, intended to
            establish more systematic and rigorous reviews of internal controls over
            programmatic operations. A multi-year plan evaluates implemented internal
            controls identified in the strategy for effectiveness at assessing the program’s
            operations. The multi-year plan is designed so any weaknesses or deficiencies can
            be identified and corrected. Examples of sources of information EPA could use
            for the multi-year plan are provided in OMB Circular A-123, EPA Order 1000.24,
            and EPA’s Management Integrity Program–FY 2011 Annual Guidance for
            Assessing Internal Control over Programmatic Operations. Internal control
            reviews for the multi-year plan can be done with audits, questionnaires, site visits,
            external evaluations, and internal self-assessments. Similar to the water security



13-P-0349                                                                                     14
            strategy previously discussed, conference calls, meetings, and conferences were
            identified as what the internal control evaluation process would include. Although
            they may serve as ways to review a program’s internal controls, we determined
            that there were no significant discussions on the program’s internal controls or
            potential deficiencies during the minutes we reviewed. Without improvement in
            the multi-year plan, water security program operations cannot be properly
            assessed. Any weaknesses that would hinder the program from reaching its goals
            may be overlooked and program management subsequently would not improve.

Prior Recommendations Implemented but Some Suggestions Remain

            EPA has addressed OIG and GAO recommendations pertaining to EPA’s drinking
            water security program. EPA has also addressed six of the 11 OIG suggestions.
            However, three pertinent suggestions have not been fully addressed. Although
            OIG does not formally track EPA adherence to or implementation of suggestions,
            these past suggestions offered meaningful information on how to make
            improvements. Nonetheless, the priority is that the Agency address agreed-to
            recommendations, which was accomplished.

            EPA has implemented both OIG recommendations to evaluate VAs for
            completeness and prioritization of its research activities. However, EPA has not
            established a baseline or outcome-focused performance indicators (measures),
            which were outlined in three prior OIG suggestions. In 2003, EPA had agreed
            with OIG’s assessment for needed performance measures and baseline. EPA has
            made a significant effort to enlist the assistance of the CIPAC workgroup to be
            responsive to these OIG suggestions. Thus far, this effort has not resulted in the
            development of any of the missing performance measure elements: outcome
            performance measures and a baseline. As a result of this evaluation, OIG found
            that the missing performance elements continued to limit EPA’s ability to
            measure the water security program effectiveness and progress. For these reasons,
            we have elevated these prior suggestions to recommendations.

            Additionally, GAO made two drinking water security recommendations which
            EPA has implemented. GAO directed EPA to assess the need for public policy
            tools to encourage the Water ISAC to continue its protection activities and
            increase information sharing. GAO also directed EPA to consider how to best
            allocate security-related funds to drinking water systems and how security-
            enhancing activities should be supported. Both of these recommendations have
            been implemented and closed out by GAO.

Conclusion
            EPA has taken a number of steps to assist drinking water systems to protect the
            nation’s drinking water against terrorist threats and natural disasters. However,
            EPA’s strategic planning and internal control processes for water security must be



13-P-0349                                                                                   15
            improved to enhance programmatic operations and minimize risks to critical
            infrastructure. We acknowledge that EPA’s strategic planning process in this area
            has been hampered by a number of impediments, namely, its lack of statutory
            authority, the voluntary nature of the water security program, and concerns
            pertaining to protecting security information. However, the Agency has not sought
            additional authority from Congress recently or utilized all available approaches to
            establish a water security baseline and outcome performance measures. Without
            additional authority, the water security program will be unable to fully gauge its
            effectiveness in assisting drinking water systems to protect the nation’s drinking
            water supply against attacks and natural disasters. The Agency needs authority that
            is commensurate with its responsibility as the lead federal agency for the water
            sector, and which allows it to properly address this national issue. EPA must
            strengthen management of the water security program, assess water security
            progress, and support resources expended in order to help water systems protect
            drinking water accessed by 297 million people in the United States.

Recommendations
            We recommend that the Assistant Administrator for Water:

               1.	 Develop a comprehensive strategic plan across all program offices that are
                   involved in EPA’s water security program.

               2.	 Utilize information currently available to assess the state of water security
                   across the nation, specifically, by:

                       a.	 Gathering water security data, and
                       b.	 Incorporating water security-related performance measures,
                           targets, and annual commitments into OW’s National Program
                           Manager Guidance.

               3.	 Seek additional authority from Congress to better manage the security of
                   drinking water systems and their water supply. Additional authorities
                   should include the ability to collect, protect, and utilize water system-
                   specific security information

               4.	 If additional authority is granted, further assess the state of water security
                   across the nation, specifically, by:

                       a.	 Developing and utilizing a drinking water security baseline and
                           conducting periodic reassessments, and
                       b.	 Developing and utilizing annual and long-term outcome measures.




13-P-0349                                                                                       16
               5.	 Develop and implement a program review strategy and a multi-year internal
                   control review plan for water security in accordance with requirements set
                   by FMFIA, as implemented by OMB Circular A-123 and EPA Order
                   1000.24, which enables the Agency to address risks, assess effectiveness,
                   reveal any weaknesses, and monitor actions to address those weaknesses.

Agency Comments and OIG Evaluation
            OW provided a written response to a draft of this report and expanded on and
            clarified that response in subsequent meetings with the OIG. OW’s response to
            the draft report, along with the OIG’s evaluation, is in appendix B. The Agency
            also provided technical comments. Where appropriate, we made changes to the
            report based on these comments.

            In its written response and in follow-up meetings, OW agreed to address all
            recommendations. EPA initially agreed with four recommendations in the draft
            report (currently recommendations 1, 2a, 2b, and 5). After further discussions
            with the Agency, the OIG modified the three remaining recommendations
            (currently recommendations 3, 4a, and 4b) to seek additional authority and
            develop a baseline and outcome measures. As a result of these discussions and
            modifications, the Agency has also concurred with the current recommendations
            3, 4a, and 4b. The OW provided corrective actions and estimated completion
            dates for the recommendations that it develop an agencywide work plan with
            enhanced metrics; include water security measures, targets, and commitments into
            the OW’s National Program Manager Guidance; seek additional authority; and
            develop and implement a program review strategy and multi-year internal control
            plan. If additional authority is granted, EPA has agreed to obtain the necessary
            information needed to establish a baseline and outcome measures. All
            recommendations are resolved and open with corrective actions underway.




13-P-0349                                                                                     17
                                        Status of Recommendations and
                                          Potential Monetary Benefits
                                                                                                                              POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                           Subject                           Status1      Action Official           Date      Amount      Amount

     1       16     Develop a comprehensive strategic plan across all          O       Assistant Administrator    6/30/14
                    program offices that are involved in EPA’s water                          for Water
                    security program.

     2       16     Utilize information currently available to assess the              Assistant Administrator
                    state of water security across the nation,                                for Water
                    specifically, by:
                     a. Gathering water security data, and                     O                                  6/30/14

                     b. Incorporating water security-related                   O                                  9/30/14
                        performance measures, targets, and annual
                        commitments into OW’s National Program
                        Manager Guidance.

     3       16     Seek additional authority from Congress to better          O       Assistant Administrator    3/31/14
                    manage the security of drinking water systems and                         for Water
                    their water supply. Additional authorities should
                    include the ability to collect, protect, and utilize
                    water system-specific security information.

     4       16     If additional authority is granted, further assess the             Assistant Administrator
                    state of water security across the nation,                                for Water
                    specifically, by:
                     a. Developing and utilizing a drinking water              O                                  3/31/16
                        security baseline and conducting periodic
                        reassessments, and
                     b. Developing and utilizing annual and long-term          O                                  3/31/16
                        outcome measures

     5       17     Develop and implement a program review strategy            O       Assistant Administrator    12/31/14
                    and a multi-year internal control review plan for                         for Water
                    water security in accordance with requirements set
                    by FMFIA, as implemented by OMB Circular A-123
                    and EPA Order 1000.24, which enables the
                    Agency to address risks, assess effectiveness,
                    reveal any weaknesses, and monitor actions to
                    address those weaknesses.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-P-0349                                                                                                                                       18
                                                                                      Appendix A

               Prior Drinking Water Security Reports

                                               EPA OIG
 Report Title                                                  Report No.     Publication Date
 EPA Needs a Better Strategy to Measure Changes in the         2003-M-00016   September 11, 2003
 Security of the Nation’s Water Infrastructure
 EPA Needs to Assess the Quality of Vulnerability              2003-M-00013   September 24, 2003
 Assessments Related to the Security of the Nation’s Water
 Supply
 Survey Results on Information Used by Water Utilities to      2004-M-0001    January 20, 2004
 Conduct Vulnerability Assessments
 EPA’s Final Water Security Research and Technical             2004-P-00023   July 1, 2004
 Support Action Plan May Be Strengthened Through Access
 to Vulnerability Assessments
 EPA Needs to Determine What Barriers Prevent Water            2005-P-00002   January 6, 2005
 Systems from Securing Known Supervisory Control and
 Data Acquisition (SCADA) Vulnerabilities
 Summary of Recent Developments in EPA’s Drinking Water        08-P-0120      March 31, 2008
 Program and Areas for Additional Focus


                                                    GAO
 Report Title                                                  Report No.     Publication Date
 Critical Infrastructure Protection: Challenges for Selected   GAO-03-233     February 2003
 Agencies and Industry Sectors
 Drinking Water: Experts’ Views on How Future Federal          GAO-04-29      October 2003
 Funding Can Best Be Spent to Improve Security
 Protection of Chemical and Water Infrastructure: Federal      GAO 05-327     March 2005
 Requirements, Actions of Selected Facilities, and
 Remaining Challenges
Source: EPA OIG analysis.




13-P-0349                                                                                          19
                                                                                         Appendix B

                Agency Response to the Draft Report
                       and OIG Comments
                                      (Received April 24, 2013)

MEMORANDUM

SUBJECT:        Response to the Office of Inspector General Draft Project No. OPE-FY12-006,
                “EPA Needs Additional Strategic Planning and Internal Controls to Enhance
                Drinking Water Security,” dated February 21, 2013

FROM:           Nancy K. Stoner /s/
                Acting Assistant Administrator
TO:             Arthur A. Elkins, Jr.
                Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject
audit report. Following is a summary of the agency's overall position, along with its position
on each of the report recommendations. For those report recommendations with which the
agency agrees, we have provided either high-level intended corrective actions and estimated
completion dates to the extent we can or reasons why we are unable to provide high-level
intended corrective actions and estimated completion dates at this time. For those report
recommendations with which the agency does not agree, we have explained our position. For
your consideration, we have included a Technical Comments Attachment to supplement this
response.

AGENCY'S OVERALL POSITION

The EPA takes the responsibility of promoting risk reduction in the water sector with respect
to all hazards, whether extreme weather events or intentionally malevolent acts very seriously.
We welcome the IG's recommendations on potential improvements to this program in an
effort to enhance the EPA's water security program. The EPA would like to acknowledge that
the water security program is a non-regulatory program. This might pose a programmatic
challenge when determining how the EPA can adopt some of the corrective actions cited in
the IG's report.

OIG Overall Response:

The OIG understands that the agency currently is implementing a non-regulatory, voluntary program and
has limited statutory authority. The OIG also recognizes the constraints identified by OW and has
discussed them in the report, and we believe we have proposed a recommendation to provide EPA with
the authorization it needs. The intent of the report recommendations was to provide the OW with ways to
mitigate these limitations. Until the OW addresses these limitations, the water security program will
continue to operate with inadequate performance measures and internal controls.


13-P-0349                                                                                            20
AGENCY'S RESPONSE TO REPORT RECOMMENDATIONS


 No. Recommendation                High-Level Intended Corrective        Estimated    OIG Response 
                                   Actions                               Completion
                                                                         by Quarter    
                                                                         and FY
 1    Develop a comprehensive     The OW will meet on an annual basis 1QFY14          Based upon OW’s response and subsequent
      strategic plan across all   with each office to describe the                    discussions, the OIG believes the proposed
      program offices involved in program outcomes and priorities that                corrective action will address the intent of
      EPA's water security        it intends to achieve and to determine              the recommendations. The meetings will
      program                     how the other offices can contribute                foster improved coordination and
                                                                                      collaboration with the end-product being a
                                  to these outcomes and priorities as
                                                                                      more complete work plan than what the
                                  their resources permit.                             water security program is currently
                                                                                      operating from. In subsequent discussions,
                                                                                      the OW estimated the work plan, enhanced
                                                                                      with more outcome-type metrics, will be
                                                                                      completed by 3QFY14 (June 2014).

 2(a) Gather water security data The EPA will be limited in its ability   NA          In subsequent discussions with the OW, it
      by utilizing existing       to fulfill this recommendation due to               was explained the OW is currently using
      information, and employing statutory constraints.                               available information to get a pulse on the
      alternative means to gather                                                     state of water security. The OW also intends
      data                                                                            to develop more outcome-type metrics to
                                                                                      augment the ones they currently use, as part
                                                                                      of the work plan being developed to address
                                                                                      Recommendation 1. The OW estimates the
                                                                                      work plan will be completed by 3QFY14
                                                                                      (June 2014). The OIG accepts the corrective
                                                                                      actions proposed by the OW as meeting the
                                                                                      intent of this recommendation.




13-P-0349                                                                                                                       21
 2(b) Develop and utilize a        The EPA will be limited in its ability   NA       In subsequent discussions, EPA has
      drinking water security      to fulfill this recommendation due to             committed that, if additional authority is
      baseline and conduct         statutory constraints.                            granted (Recommendation 3), it will work
      periodic reassessments                                                         with OMB and water sector partners in order
                                                                                     to collect the necessary information and
                                                                                     develop a baseline to fulfill this
                                                                                     recommendation by second quarter FY 2016
                                                                                     (March 2016). The OIG accepts the OW’s
                                                                                     plans to address the recommendation. This
                                                                                     is Recommendation 4a in the final report.

 2(c) Develop and utilize annual The EPA will be limited in its ability     NA       In subsequent discussions, EPA has
      and long-term outcome        to fulfill this recommendation due to             committed that, if additional authority is
      measure(s) to assess overall statutory constraints.                            granted (Recommendation 3), it will work
      water security progress                                                        with OMB and water sector partners in order
                                                                                     to collect the necessary information and
                                                                                     develop outcome measures to fulfill this
                                                                                     recommendation by second quarter FY 2016
                                                                                     (March 2016). The OIG accepts the OW’s
                                                                                     plans to address the recommendation. This
                                                                                     is Recommendation 4b in the final report.

 2(d) Incorporate water security   In future iterations of this guidance,   4QFY14   The OIG accepts the OW’s plans to address
      related performance          EPA will include key water security               the recommendation. This is
      measures, targets and        metrics.                                          Recommendation 2b in the final report.
      annual commitments into
      Office of Water's National
      Program Manager
      Guidance




13-P-0349                                                                                                                    22
 3    Seek additional authority   The EPA expects that it will need to NA          Based upon subsequent discussions with
      from Congress to better     operate the program under the current            OW about this recommendation, the OIG
      manage the security of      constraints.                                     believes the corrective action proposed by
      drinking water systems                                                       the OW will address the intent of the
                                                                                   recommendation. The OW has committed
                                                                                   to meeting with Administration officials
                                                                                   outside of EPA about obtaining additional
                                                                                   authority for the water security program by
                                                                                   second quarter FY 2014. The OIG accepts
                                                                                   the OW’s plans to address the
                                                                                   recommendation.

 4    Develop and implement a     The EPA can commit to undertaking       1QFY14   The OIG agrees with the proposed
      program review strategy     this recommendation with the caveat              corrective action to develop a strategy and
      and a multi-year internal   that the performance and outcome-                plan within the limitations and constraints of
      control review plan for     based metrics required of these tasks            the program. This is Recommendation 5 in
      water security in           will of necessity be limited to the              the final report.
      accordance with FMFIA       output and limited outcome-based
                                  metrics that OW currently collects in
                                  assessing its water security program.

Attachments

Technical Comments
cc: 	 Mike Shapiro
      Peter Grevatt
      David Travers
      Michael Mason
      Marilyn Ramos




13-P-0349                                                                                                                     23
                                                                            Appendix C

                                  Distribution
Office of the Administrator
Assistant Administrator for Water
Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Homeland Security
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Regional Administrator, Region 3
Regional Administrator, Region 5
Principal Deputy Assistant Administrator for Water
Principal Deputy Assistant Administrator for Research and Development
Director, Office of Regional Operations
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Research and Development
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Region 3
Audit Follow-Up Coordinator, Region 5




13-P-0349                                                                     24
